<html>
<title> - RESEARCH AND INNOVATION TO ADDRESS THE CRITICAL MATERIALS CHALLENGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   RESEARCH AND INNOVATION TO ADDRESS
                    THE CRITICAL MATERIALS CHALLENGE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           December 10, 2019

                               __________

                           Serial No. 116-61

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-519 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
VACANCY
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           JIM BAIRD, Indiana
BILL FOSTER, Illinois
SEAN CASTEN, Illinois
                         
                         C  O  N  T  E  N  T  S

                           December 10, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement............................................     8

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10

                               Witnesses:

Dr. Adam Schwartz, Director, Ames Laboratory
    Oral Statement...............................................    12
    Written Statement............................................    14

Dr. Sophia Hayes, Professor, Department of Chemistry, Washington 
  University in St. Louis
    Oral Statement...............................................    25
    Written Statement............................................    27

Mr. David Weiss, Vice President, Engineering and Research and 
  Development, Eck Industries, Inc.
    Oral Statement...............................................    33
    Written Statement............................................    35

Dr. Carol Handwerker, Reinhardt Schuhmann, Jr. Professor, 
  Materials Engineering & Environmental and Ecological 
  Engineering, Purdue University
    Oral Statement...............................................    40
    Written Statement............................................    42

Discussion.......................................................    48

              Appendix: Additional Material for the Record

Letter submitted by Representative Haley Stevens, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    72

 
                   RESEARCH AND INNOVATION TO ADDRESS
                    THE CRITICAL MATERIALS CHALLENGE
                    
                              ----------                              


                       TUESDAY, DECEMBER 10, 2019

                       House of Representatives,

                        Subcommittee on Energy,

              Committee on Science, Space, and Technology,

                            Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Lamb. The hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time.
    Good morning. Welcome to today's hearing entitled 
``Research and Innovation to Address the Critical Materials 
Challenge.'' I know that we are the primary focus of everyone 
on Capitol Hill today of all days, and I appreciate you all for 
joining us.
    Today, we will be holding a hearing on the importance of 
rare or difficult-to-obtain materials, often called critical 
materials, for a wide array of energy, defense, and research 
applications. We'll examine a draft bill by my colleague Mr. 
Swalwell that will support critical materials research to 
improve their recycling and their ability to be replaced with 
more commonly available materials.
    Many of the energy technologies that we're all used to that 
enable our modern life, including clean energy technologies, 
are underpinned by a host of these critical materials that are 
found in very limited quantities and in very few countries. 
This includes important technologies like electrical vehicles, 
solar panels, wind turbines, and other technologies used by our 
military and our national infrastructure. So if we continue the 
success of these technologies, we have to have an affordable 
rare-earth supply chain of these critical materials.
    Unfortunately, the U.S. now relies on the importation of 
100 percent of 14 of these materials and importing a partial 
supply of many more. The supply chain and technology 
application for each material is different, but it is not wise 
for us to rely on countries that may be adversarial to us.
    To address this issue, DOE (Department of Energy) and the 
Critical Materials Institute are working hard to develop new 
sources of these materials. Experts at the National Energy 
Technology Laboratory (NETL), including their great team 
outside of Pittsburgh, are looking into ways to extract rare-
earth elements out of coal and coal byproducts. And on my 
several visits there, they are always proud to show off a 
beaker of graphite solution extracted from coal that is worth 
about $20,000, just about this much of it. So it is possible to 
do. We just have to find a way to make it more economically 
viable. But this would provide a new resource for places like 
western Pennsylvania and beyond.
    Behind the scenes of the research, the scientific 
community's work is the need for helium, which is sometimes 
considered a critical material and one that we do produce here 
in the United States. Due to its unique chemical properties, 
helium is essential for maintaining equipment at hundreds of 
labs across the country, and it's an important input into 
industrial processes like rocket propulsion.
    Recent helium price increases have hampered our labs' work 
by postponing research, shifting research priorities, and at 
times harming equipment, all of which strain labs' budgets and 
slows innovation. We have to ensure that our researchers have 
access to the helium they need, and Federal support can play an 
important role here.
    As with other critical materials, R&D (research and 
development) can play a significant role in improving our 
helium use efficiency, finding new sources, and developing 
substitutes where possible. We've heard many times on this 
Committee that our economic competitiveness is driven by our 
support for innovation, which makes this one of our top 
priorities. We are not guaranteed the materials to continue to 
research, build, and deploy the next generation of clean energy 
just because we have the knowledge to develop them. 
Accordingly, we have to strengthen our supply chain and make 
sure that we can safeguard our energy future, our national 
security, and our economic growth. That's why I'm excited to 
hear more about this topic, and I thank our panel of witnesses 
for being here today.
    [The prepared statement of Chairman Lamb follows:]

    Good morning and thank you to this distinguished panel of 
witnesses for joining us today. Today we'll be holding a 
hearing on the importance of rare or difficult-to-obtain 
materials, often called critical materials, for a wide range of 
energy, defense, and research applications. This hearing will 
also examine a draft bill introduced by my colleague, Mr. 
Swalwell, that would support critical materials research to 
improve their recycling and their ability to be replaced with 
more commonly available materials, as well as establish more 
sustainable sources of these materials.
    Many of the energy technologies that enable our modern 
energy world, including clean energy technologies, are 
underpinned by a host of critical materials that are found in 
limited quantities and few countries. This includes important 
technologies like electric vehicles, solar panels, wind 
turbines, and other technologies utilized by our military and 
our broader national infrastructure. So if we are to continue 
the success of these and future technologies, we must ensure an 
affordable, reliable supply chain of critical materials. 
Unfortunately, due to the distribution of the supply chains for 
these materials, the U.S. relies on the importation of 100% of 
14 materials, and the partial import of many more. While the 
supply chain and technology application for each material is 
different, it is not wise for us to rely on countries with 
adversarial, unstable, or unjust governments to provide 
materials critical to our economy, national security, and clean 
energy future.
    To address this important issue, DOE and the Critical 
Materials Institute are working hard to develop new sources of 
these materials and improve their reuse and recycling. In fact, 
our experts at the National Energy Technology Laboratory, 
including their great team in Pittsburgh, are looking into ways 
to extract rare earth elements out of coal and coal by-
products. Not only is this program exploring ways to secure 
much needed rare earth elements, it could provide a valuable 
new economic resource for the many people in western 
Pennsylvania.
    Behind the scenes of energy research and the scientific 
community's work more broadly is the need for helium, which is 
sometimes considered a critical material in its own right. Due 
to its unique chemical properties, helium is essential for 
maintaining equipment at hundreds of labs across the country, 
like those at Carnegie Mellon, and is an important input to 
industrial processes like rocket propulsion. Recent helium 
price increases have hampered our labs' work by postponing 
research, shifting research priorities, and at times harming 
equipment, all of which strain labs' budgets and slows 
innovation. We must ensure our researchers have access to the 
helium they need, and federal support can play an important 
role in that process. Like with other critical materials, R&D 
can play a significant role in improving our helium-use 
efficiency, finding new sources, and developing substitutes 
where possible. As we've heard many times on this Committee, 
U.S. economic competitiveness is driven by our support for 
innovation, so it should be a top priority for us to ensure 
reliable, affordable helium for our research community.
    We aren't guaranteed the materials to continue to research, 
build, and deploy the next generation of clean energy and other 
technologies just because we have the knowledge to develop 
them. Accordingly, we need to bolster and ensure these supply 
chains to safeguard our energy future, our national security, 
and our economic growth. That is why I am excited to hear more 
about how we can harness U.S. ingenuity and federally supported 
research to better address these issues. I thank our panel of 
witnesses again for being here today and I look forward to 
their input and feedback on these important topics and the 
proposed legislation.

    Chairman Lamb. With that, I will turn to the Ranking 
Member, Mr. Weber, for an opening statement.
    Mr. Weber. Thank you, Chairman Lamb, for holding today's 
Subcommittee hearing. I'm looking forward to hearing from our 
witnesses about the energy technologies and applications being 
developed through critical materials research.
    Critical materials, as you already pointed out, play an 
important role in supporting the technology that will 
ultimately help us change the United States' energy 
consumption. Whether it's lithium used in advanced batteries or 
helium--yes, helium is more than just party balloons in case 
you were wondering--in rocket propulsion systems, our resources 
are limited in quantity and can be challenging to develop.
    And while demand is only increasing for these critical 
materials, supply can also be and is often restricted by 
geopolitical and market forces. As it currently stands, 
Australia, Chile, China, and Argentina produce 97 percent of 
the world's lithium supply, a mineral that is absolutely 
essential for battery technology and will be key for the 
expansion of electric vehicles.
    So imagine if our adversaries controlled a critical 
material used in building the next advanced military weapon. If 
they were to slow down that supply or cut it off altogether, we 
would be at a dangerous disadvantage. Energy is just as 
important, and we cannot allow the advancement of technology to 
be limited by political or geographic forces. In order to 
understand our economic risk, it's vital that we assess our 
resources here in the United States and better understand 
exactly what elements and materials are vulnerable to global 
supply disruptions, no matter what the source.
    So that is one of the reasons President Trump issued 
Executive Order 3817, and the Department of Interior took the 
first step by leading an interagency coordination to publish a 
list of 35 critical minerals to the American economy. But 
understanding our natural resources is only part of the story. 
Because many critical materials are very difficult to produce, 
it is absolutely essential that we maximize our ability to not 
only use and but to reuse these materials.
    By extending the commercial lifecycle of these materials 
and investing in research to improve the efficiency of 
recycling and reuse, we can maximize our resources. Research 
can also allow us to explore opportunities to extract critical 
materials from new sources that were once considered, quite 
frankly, only waste products. We actually talked a little bit 
about that.
    That is why DOE's National Energy Technology Laboratory, in 
coordination with the Critical Materials Institute or CMI, is 
currently conducting research on extracting materials from coal 
and coal byproducts. This research can help improve the 
economics of energy supply and production and reduce those very 
environmental impacts we all want to reduce. And at Ames Lab, 
which hosts CMI, researchers are working to improve reuse and 
recycling, and to expand our supply by synthesizing new 
materials or developing substitutes. By coordinating basic 
research in materials science and chemistry with early stage 
applied research in manufacturing, the CMI structure helps us 
to get the best bang for our buck and takes a holistic approach 
to this challenge. Our national security and our economic 
growth cannot be left at the mercy of a global supply chain. It 
just cannot happen.
    I believe the Department of Energy has the capability to 
conduct the research and development needed to get the United 
States back on track as a global leader in critical materials. 
Dare I say that the United States leading in critical materials 
is our critical mission.
    I look forward to hearing from our witnesses on how their 
research is contributing to this goal and what steps we as 
Congress will need to take to support those efforts.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Weber follows:]

    Thank you Chairman Lamb for holding today's Subcommittee 
hearing. I'm looking forward to hearing from our witnesses 
about the energy technologies and applications being developed 
through critical materials research.
    Critical materials play an important role in supporting the 
technologies that will change the United States' energy 
consumption.
    Whether it's lithium used in advanced batteries or helium - 
yes, it's for more than just party balloons - in rocket 
propulsions systems, our resources are limited in quantity and 
can be challenging to develop.
    And while demand is only increasing for these critical 
materials, supply can also be restricted by geopolitical and 
market forces. As it currently stands, Australia, Chile, China, 
and Argentina produce 97% of the world's lithium supply, a 
mineral that is essential for battery technology, and will be 
key for the expansion of electric vehicles.
    Imagine if our adversaries controlled a critical material 
used in building the next advanced military weapon. If they 
were to slow down supply or cut it off altogether, we would be 
at a dangerous disadvantage. Energy is just as important, and 
we can't allow the advancement of technology to be limited by 
political or geographic forces.
    In order to understand our economic risk, it's vital that 
we assess our resources here in the U.S., and better understand 
what elements and materials are vulnerable to global supply 
disruptions.
    That is one of the reasons President Trump issued Executive 
Order 3817, and the Department of Interior took the first step 
by leading an interagency coordination to publish a list of 35 
critical minerals to the American economy.
    But understanding our natural resources is only part of the 
story. Because many critical materials are difficult to 
produce, it is essential that we maximize our ability to use 
and reuse these materials.
    By extending the commercial lifecycle of these materials, 
and investing in research to improve the efficiency of 
recycling and reuse, we can maximize our resources. Research 
can also allow us to explore opportunities to extract critical 
materials from new sources that were once considered only waste 
products.
    That is why DOE's National Energy Technology Laboratory, in 
coordination with the Critical Materials Institute or C-M-I, is 
currently conducting research on extracting materials from coal 
and coal byproducts. This research can help improve the 
economics of energy supply and production, and reduce 
environmental impacts.
    And at Ames Lab, which hosts CMI, researchers are working 
to improve reuse and recycling, and to expand our supply by 
synthesizing new materials or developing substitutes. By 
coordinating basic research in materials science and chemistry 
with early-stage, applied research in manufacturing, the CMI 
structure helps us get the best bang for our buck, and take a 
holistic approach to this challenge.
    Our national security and economic growth cannot be left at 
the mercy of a global supply chain.
    And I believe the Department of Energy has the capability 
to conduct the research and development needed to get the 
United States back on track as a global leader in critical 
materials.
    I look forward to hearing from our witnesses on how their 
research is contributing to this goal, and what steps Congress 
will need to take to support their efforts.

    Chairman Lamb. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and thank you to all our witnesses for joining 
us here today to discuss a topic that is of great importance to 
many of our nation's industries: the supply of critical 
materials. There are growing concerns regarding the potential 
disruption of supply chains that use critical minerals for 
various end uses, including clean energy generation and storage 
technologies dependent on these raw materials. Today's hearing 
will help us to identify strategies for addressing these risks 
and provide information that will hopefully be helpful for 
stakeholders working in these areas.
    Rare minerals are now fundamental to the functioning of our 
nation. They are found in alloys, magnets, batteries, and 
catalysts, which in turn are integrated into countless products 
such as aircraft, electric vehicles, lasers, naval vessels, and 
various types of consumer electronics. However, some of the 
minerals found in these applications are in limited supply and 
the methods for their extraction incur high environmental and 
financial costs. Given their necessity in so many applications, 
there is growing concern over whether supply can meet our 
societal demand in both the near- and far term.
    Each mineral has its own unique story of supply and price 
vulnerability. For example, in my home state of Texas, the city 
of Amarillo justifiably calls itself the ``Helium Capital of 
the World.'' Since the 1920s, the town has been home to the 
Federal Helium Reserve, a massive underground geological 
formation that acts as the U.S. strategic helium supply 
repository. The U.S. has long been the world's largest helium 
producer, but experts for years have warned of a forthcoming 
shortage.
    You may think of helium only in terms of party balloons and 
perhaps the Macy's Thanksgiving Day parade, but helium has a 
wide array of practical uses, from crucial roles that it plays 
inindustrial processes, to military and civilian aerospace 
applications, to medical technologies and basic research, many 
of these uses spanning the Science Committee's jurisdiction.
    As Dr. Hayes will testify today, her research with 
superconductors heavily depends on reliable supplies of 
affordable helium. We will also hear from our panel of 
witnesses about how there are no readily available substitutes 
existing for many materials, and that without action the U.S. 
could potentially face an annual shortfall of up to $3.2 
billion worth of critical materials.
    As our nation's demand for these materials rapidly 
increases, in step with our advancements in various 
technologies, I look forward to learning more from today's 
witnesses about how we can better support our National Labs, 
universities, and private companies in addressing this national 
challenge.
    Thank you and I yield back.

    Chairman Lamb. Thank you. At this time I would like to 
introduce our witnesses. Dr. Adam Schwartz is the Director of 
Ames Laboratory, one of DOE's 17 national labs. Ames Lab 
stewards the Critical Materials Institute, a DOE Energy 
Innovation Hub dedicated to researching key critical materials. 
Dr. Schwartz is also a Professor of materials science and 
engineering at Iowa State University and previously spent 23 
years working at Lawrence Livermore National Laboratory 
researching topics such as physical metallurgy and condensed 
matter physics. Welcome, Dr. Schwartz.
    Dr. Sophia Hayes is a Professor in the Department of 
Chemistry at Washington University in St. Louis covering 
research topics in chemistry, materials science, and condensed 
matter physics. She is also a co-author of the 2016 report, 
``Responding to the U.S. Research Community's Liquid Helium 
Crisis'' and uses helium extensively in her research to 
maintain equipment and achieve very low cryogenic temperatures. 
Welcome, Dr. Hayes.
    Mr. David Weiss is the Vice President of Engineering and 
Research and Development at Eck Industries, which is based in 
Wisconsin and produces advanced metal castings. In his role, he 
is responsible for the research and application of high-
performance alloys and casting concepts, also the subject of 
over 80 papers that he has authored or co-authored. During his 
time at Eck Industries, the company has worked closely with 
DOE's Critical Materials Institute. Welcome, Mr. Weiss.
    Dr. Carol Handwerker is the Reinhardt Schuhmann, Jr. 
Professor of Materials Engineering and Environmental and 
Ecological Engineering at Purdue University and leads the DOE 
Critical Materials Institute's focus area in recycling and 
reuse. Prior to joining Purdue, she served as the Chief of 
NIST's (National Institute of Standards and Technology's) 
Metallurgy Division. During her 21-year career at NIST she led 
measurement R&D to improve the manufacture and performance of 
electronic, magnetic, photonic, and structural materials. 
Welcome, Dr. Handwerker.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. And when you all have 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel. We will 
start with Dr. Schwartz.

                 TESTIMONY OF DR. ADAM SCHWARTZ,

                   DIRECTOR, AMES LABORATORY

    Dr. Schwartz. Chairman Lamb, Ranking Member Weber, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss the importance of research and innovation to address 
the critical materials challenge. And thank you for your 
continued strong support of physical sciences in energy 
research. I'm Adam Schwartz, Director of Ames Laboratory, a 
Department of Energy national laboratory managed by and co-
located on the campus of Iowa State University.
    The United States is a world leader in physics, chemistry, 
and materials research as a result of decades of Federal 
investment. To remain a world leader, the United States must 
continue to innovate with new materials, new products, new 
energy options, and new defense applications. However, new 
technologies in engineered materials create the potential for 
rapid increases in demand for some elements, thus creating the 
next critical material. The critical material provides 
essential functionality to modern engineered material, has few 
ready substitutes, and is subject to supply chain risk. As with 
most things we don't have enough of, the choice is to make more 
or use less.
    There are two substantial DOE programs currently addressing 
the criticality of rare-earth elements. DOE's Office of Fossil 
Energy and the National Energy Technology Laboratory aim to 
``make more'' by understanding the technical and economic 
feasibility of extracting and recovering rare-earths from coal 
and coal byproducts such as coal refuse, power generation ash, 
clay and shale, and acid mine drainage. Projects range from 
fundamental research to the design, construction, and operation 
of small pilot-scale facilities producing salable, high-purity 
rare-earth oxides.
    The second major program to reduce criticality comes from 
DOE's Advanced Manufacturing Office. The Critical Materials 
Institute or CMI is conducting early stage research to 
accelerate the development and application of solutions to 
critical materials challenges, enabling innovation in U.S. 
manufacturing and enhancing U.S. energy security. By closely 
following the DOE's strategy to make more by diversifying 
supply and improving reuse and recycling, or use less by 
developing substitutes, the CMI team of national labs, 
universities, and industrial partners is having an impact with 
309 publications, 129 invention disclosures leading to 58 U.S. 
patent applications, 12 awarded patents, and 9 licensed 
technologies.
    As examples, CMI research to diversify supply aims to 
increase the supply of critical materials by creating more 
cost-effective and energy-efficient methods for the extraction, 
separation, and conversion of ore to metal. Momentum 
Technologies, a U.S. startup company, licensed two of those CMI 
technologies. To improve reuse and recycling, CMI developed an 
innovative acid-free dissolution and separation process for 
removing rare-earth ions from shredded hard disk drives. That 
process won an R&D 100 award. And for developing substitutes 
and newly discovered permanent magnet formulation replaces half 
of the precious neodymium, effectively doubling magnet 
production per ton of ore.
    The CMI materials criticality framework is being extended 
well beyond rare-earths to include materials for battery and 
thin-film solar and LED panels. The push toward electric 
mobility increases the demand for energy storage elements like 
lithium, cobalt, and graphite. CMI research has developed 
technologies that can allow domestic production of two novel 
sources of lithium from geothermal brine and mining tailings.
    In addition to all the successes and options that CMI has 
generated, the most important of all is the enduring capability 
that the team has created. It is the combination of criticality 
assessments, techno-economic analyses, road-mapping, and early 
input from industry that sets the stage for effective and 
efficient research into solving critical materials challenges. 
CMI's critical materials framework integrates expertise across 
the supply chains to deliver industrial-relevant technologies 
to diversify supply, improve reuse and recycling, and develop 
substitutes that are all informed and enabled by foundational 
science.
    It is this enduring capability and collaboration that puts 
the U.S. in the strongest position as new materials become 
critical and is why CMI in particular is such an important 
national resource for addressing these challenges that are only 
going to grow more pronounced over time. Global factors, such 
as growth in world population, will place an even greater 
stress on diversification of mineral resources, the importance 
of innovation and creating substitute materials and the 
development of the science to improve the economics of reuse 
and recycling.
    Thank you for the opportunity to testify, and again, thank 
you for your consistent strong support of materials and energy 
research. I'd be happy to address any questions or provide 
additional information.
    [The prepared statement of Dr. Schwartz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Lamb. Thank you, Dr. Schwartz. Dr. Hayes.

                 TESTIMONY OF DR. SOPHIA HAYES,

              PROFESSOR, DEPARTMENT OF CHEMISTRY,

               WASHINGTON UNIVERSITY IN ST. LOUIS

    Dr. Hayes. Chairman Lamb, Ranking Member Weber, and Members 
of the Subcommittee, thank you for the opportunity to discuss 
the importance of research and innovation on these critical 
materials. I'm Sophia Hayes, Professor of Chemistry at 
Washington University in St. Louis. And, as eloquently put by 
you both, I'm a researcher who uses liquid helium in my own 
research program for cryogenic applications, as well as to 
sustain instruments.
    I'd like to highlight that my instruments are not all that 
uncommon. These are used in every pharmaceutical company, every 
R&D department of oil and gas companies, commodity and chemical 
companies, and also at every university within the United 
States that has a major science and engineering program.
    So imagine a future time when helium is in short supply, 
where access to such instruments may become more limited or 
shut down. Medical diagnostic imaging could also become less 
accessible and where the latest handheld electronic device also 
slows in production, all for want of this commodity chemical.
    So let me share my research community's experiences as a 
reflection of the broader community's needs. Helium is an 
element, as you pointed out, with many, many special 
properties. It's lighter than air. It is inert or unreactive, 
and it also can achieve low temperatures, lower than any other 
substance we have on Earth. And instruments like mine require 
helium to operate. They cannot function without it. But liquid 
helium evaporates as it's being used, and therefore, it must be 
replenished.
    What we have faced in the past 2 decades are 2 problems. 
One is steep price increases and the other is supply shocks 
where helium could not be acquired in some cases at any price. 
The origin of the price increases come from a market that's 
highly volatile. At my institution the price for liquid helium 
has increased more than 400 percent during my career, but the 
grants that we receive remain flat, not accounting for such 
massive inflation in the price of this line item in my budget. 
For researchers like myself it means I have to choose between 
paying for helium or paying the salary to support a graduate 
student getting a Ph.D. In my case I've had to decommission 
magnets, reducing my lab's research capacity.
    Even more critical than price is supply insecurity. A 
supply shock lasting weeks or even a month can be disastrous. 
My magnets need to be filled every 4 weeks, so a delay of even 
2 to 3 weeks is a crisis. And importantly, if my supply is cut, 
it's likely that it's being felt regionally. We've had several 
major supply shocks in my career, the most recent as a result 
of the Qatar blockade, and multiple minor supply shocks.
    Given these, forward-thinking civil servants and some of 
our professional scientific societies have tried to come to our 
community's rescue. For several years the Defense Logistics 
Agency, in collaboration with the American Physical Society and 
American Chemical Society, were able to provide program 
participants a reliable source of helium at lower prices than 
they could negotiate on their own, helping to protect smaller-
scale university users who receive Federal funding. 
Unfortunately, we just learned this program will be 
discontinued in January, in part due to the turbulent helium 
market, showing how incredibly challenging this situation is.
    This purchasing program helped researchers reduce helium 
costs and mitigate pricing issues in the near-term, but our 
irreplaceable helium resources continue to be depleted, and 
reducing our long-term use of helium is essential.
    With this in mind, we must enable as many academic 
researchers as possible to reduce their helium consumption 
without compromising their programs, their research programs. 
National Science Foundation's (NSF's) Division of Materials 
Research is helping a small number of researchers reduce their 
helium use and save the government money over time by providing 
funding for the purchase of helium recyclers. This program is 
successful but far too modest to address the problems we are 
facing.
    In my opinion the NSF program should be looked at as a 
model, and Congress should ask Federal agencies to support the 
wide-range adoption of helium recycling equipment. This will 
require agencies to invest in the capital equipment 
infrastructure necessary to make helium recycling commonplace. 
Unless funding is dedicated to help address this issue, the 
U.S. risks losing the research capacity responsible for many 
significant breakthroughs in areas such as medicine, national 
security, and fundamental science.
    Additionally, while outside the jurisdiction of this 
Committee, it is important to recognize that the U.S. Strategic 
Helium Reserve, which is scheduled for shutdown in fall 2021, 
is a central component of the domestic helium supply. Storage 
of an inventory of helium is critical for the health of our 
helium supply infrastructure.
    Thank you for this opportunity to testify. I and my 
colleagues will work with the Committee at any time now or in 
the future to help maintain the Nation's security and economic 
competitiveness by ensuring this vital resource is preserved. 
Thank you.
    [The prepared statement of Dr. Hayes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Lamb. Thank you, Dr. Hayes. Mr. Weiss.

                  TESTIMONY OF MR. DAVID WEISS,

            VICE PRESIDENT, ENGINEERING AND RESEARCH

             AND DEVELOPMENT, ECK INDUSTRIES, INC.

    Mr. Weiss. Chairman Lamb, Ranking Member Weber, and Members 
of the Subcommittee, thank you for giving me the opportunity to 
appear before you today. My name is David Weiss, and I'm Vice 
President of Engineering and Research and Development for Eck 
Industries, Incorporated, located in Manitowoc, Wisconsin.
    We employ 260 people in the production of aluminum castings 
and specialty aluminum alloys. We serve the commercial aviation 
market and manufacture structural castings for the military, as 
well as components for heavy-duty hybrid powertrains.
    The need for improved aluminum alloys that can function at 
elevated temperatures is important, and our company has been 
involved in research on the topic since 2003. We considered the 
use of cerium as an alloy in addition to aluminum since it is 
the most-abundant and least-costly rare-earth element and 
theoretically had the potential for high-temperature 
strengthening. Cerium also offers a potential solution to the 
rare-earth supply issue since cerium oxides and carbonates are 
the primary minerals in many rare-earth deposits, particularly 
those available in the United States, as in the Mountain Pass 
mine in California.
    However, much of it is returned to the ground as waste. The 
development of a substantial use of cerium changes the 
economics of rare-earth production by the beneficial uses of 
byproduct, thereby lowering the cost of heavy rare-earths used 
for magnets and electronics such as dysprosium and neodymium. 
In discussion with Critical Materials Institute representatives 
at Oak Ridge National Laboratory, it was determined that this 
expanded use of cerium would serve a role in diversifying the 
rare-earth supply base, one of the key tasks of the CMI 
program.
    CMI released seed research funding to determine casting 
characteristics and mechanical properties of aluminum-cerium 
alloy systems, and it was determined that these systems have 
excellent castability and superb high-temperature properties, 
higher even than the aluminum-scandium alloys that we had 
previously developed. Our company continued to develop the 
aluminum cerium system with internal funding and with the 
assistance of national laboratory resources provided in part by 
CMI. The results were published and presented. The casting 
purchasing community took notice particularly after the alloy 
system won an R&D 100 Award in 2017. Eck licensed the 
technology and continued its development.
    Materials development is always a complex enterprise. 
Potential customers look at the data, request samples, do 
initial evaluation, and look for attributes of the material 
that had not been tested or had not been considered in the 
original development. Commercialization requires ongoing 
research to make a product in volume that meets all the 
customer's requirements at a cost that they can afford.
    We are working with 5 different Fortune 100 manufacturing 
companies to deploy the alloy in key products for their 
organizations. These efforts, industrial scale-up at our 
company, extensive product testing by the original equipment 
manufacturers, and continued research to meet product-specific 
needs and reduce cost are enabling successful development of 
aluminum-cerium alloys.
    We have started on a new phase of research that bypasses 
the need to produce metallic cerium to alloy with aluminum. We 
have demonstrated that at laboratory scale. We can alloy 
aluminum with cerium through direct reduction of the cerium 
oxide or carbonate at a significant savings in energy and cost. 
This would eliminate the foreign supply chain completely for 
this element. As we scale this technology, we expect to be able 
to produce aluminum-cerium alloys at the same cost as 
conventional aluminum alloys. Good research can make unexpected 
advances. We set out to produce and alloy resistant to elevated 
temperatures, and we were able to do that. In addition, the 
alloy is remarkably corrosion-resistant, saves energy, and can 
easily be used in additive manufacturing.
    Our success to date has been based upon several factors: 
The extraordinary team of researchers that have been assembled 
by CMI, very strong industrial participation; and a willingness 
to continue to support research that gets over the rough spots 
as our commercialization proceeds.
    Thank you for giving me the opportunity to address you 
today and to show my support for additional critical materials 
research funding. Thank you.
    [The prepared statement of Mr. Weiss follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Lamb. Thank you, Mr. Weiss. Dr. Handwerker.

               TESTIMONY OF DR. CAROL HANDWERKER,

         REINHARDT SCHUHMANN, JR. PROFESSOR, MATERIALS

          ENGINEERING AND ENVIRONMENTAL AND ECOLOGICAL

                 ENGINEERING, PURDUE UNIVERSITY

    Dr. Handwerker. Chairman Lamb, Ranking Member Weber, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss the importance of research, development, and 
demonstration to the critical materials challenge and how we 
can create a workforce capable of ensuring the future supply of 
critical materials for the Nation.
    I'm Carol Handwerker, Schuhmann Professor of Materials 
Engineering at Purdue University, and the program lead for 
recycling and reuse in the DOE Critical Materials Institute. 
Before joining Purdue, I was at NIST for 21 years, most 
recently serving as Chief of the Metallurgy Division. Both at 
NIST and Purdue, I've led industry-government-university 
partnerships to deliver science to solve national problems that 
industry could and did adopt.
    The Critical Materials Institute is a model for how H.R. 
4481 might succeed. Drawing on 4 government labs, 9 
universities, and 15 companies, it's managed as a single 
unified organization setting joint priorities to ensure 
critical materials supplies by connecting basic science with 
technology, while also developing new researchers and leaders 
for the future.
    CMI shares H.R. 4481's goal, ``to assure the long-term, 
secure, and sustainable supply of energy-critical materials 
sufficient to satisfy the national security, economic well-
being, and industrial production needs of the United States.''
    In CMI we use four key strategies to deliver meaningful 
impact from early stage research. The first is identifying the 
most important challenges and the most effective solutions 
across the full range of possibilities. The second is 
collaborating closely with industry from concept stage onward 
to build solutions that industries can use. The third is 
delivering quantified economic, logistical, and environmental 
analyses, and fourth is building teams of the world's foremost 
researchers to overcome scientific barriers.
    Every CMI research deliverable fits into a supply chain 
with the necessary links to industry. One example is the 
project for value recovery from hard disk drives, which are 
data storage workhouses of the cloud and the second-largest use 
of rare-earth magnets in the global economy. Billions of hard 
disks are in use across the United States, and tens of millions 
of them are shredded each year to destroy the sensitive 
information that they contain. When that happens, the rare-
earth elements are lost.
    CMI, Seagate, Purdue, and the International Electronics 
Manufacturing Initiative, known as iNEMI, have forged a project 
team from organizations that, together, can form a complete 
supply chain to recover viable quantities of rare-earths from 
the magnets in scrapped hard drives. The iNEMI consortium 
membership provides industrial skills and expertise that are 
complementary to CMI's research capabilities. The 15 
organizations on the hard disk drive recovery team include 
Seagate, Google, Microsoft, and Cisco, as well as a CMI 
National labs, Purdue, Momentum Technologies, and Urban Mining 
Company. The project has identified five key approaches to a 
circular economy for our disk drives with multiple pathways 
enabled by CMI's fundamental research.
    There is a simple key to CMI's most successful projects. We 
understand that a chain does not exist without all its links in 
place, and we cannot sensibly build any single link if it is 
not properly connected to its neighbors. Early career 
researchers at CMI developed scientific skills and knowledge 
like any of their peers, but they also see firsthand how 
seamless collaboration allows great science to emerge from 
industrial problems. This inspires them to carry forward in 
this area, and it is one of the hallmarks of CMI.
    CMI accelerates technology adoption and bridges the valley 
of death. It's the place, the so-called, ``valley of death,'' 
where technologies too often die in the transition from early 
stage R&D to commercialization. Operating with a sense of 
urgency from the outset, CMI has developed a focused strategy 
and applied it to a broadening set of energy-critical 
materials, translating world-class science into commercialized 
solutions in as little as 3 years.
    Creating a robust supply of energy-critical elements and 
products for the United States through H.R. 4481's program of 
research, development, demonstration, and commercial 
application will enable economic well-being and industrial 
vitality for the country to continue. CMI has built great 
capabilities, research teams, and expertise that are consistent 
with this goal and are ready to be applied to this effort.
    [The prepared statement of Dr. Handwerker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Lamb. Thank you, Dr. Handwerker.
    We will begin with 5-minute rounds of questions. I 
recognize myself for 5 minutes.
    Dr. Schwartz, I'd like to start with you. Thank you for 
giving so much attention to NETL and their program of rare-
earth research. You mentioned in your testimony the three 
domestic pilot-scale operations that they have going on. Would 
you mind just saying a little bit more about what those are and 
where they operate and exactly kind of what they're producing 
today?
    Dr. Schwartz. I don't have all the details on that. I can 
get them for you. We'd be happy to do that. Much of the work 
has been done I believe in collaboration with universities, 
particularly University of Kentucky, where that team is trying 
to understand the chemistry and the science and the 
technologies of extracting those rare-earth elements, which 
essentially start with maybe 300 parts per million of 
concentration, so in many ways trying to extract very low 
abundant elements from whatever products.
    In many cases, though, for example, the acid mine drainage, 
those rare-earth elements are, relatively speaking, a 
chemically easy way of extracting. So the development of the 
science and the technology and ultimately the pilot-scale 
project is aimed to extract those elements as efficiently as 
possible. Again, I don't have all the details, but I'd be happy 
to work with my NETL colleagues to provide that specific 
answer.
    Chairman Lamb. That's OK. Thank you. With the acid mine 
drainage extraction, I noticed also in your written testimony 
you characterize that as easy. How would you explain, then, 
kind of what barriers remain for the actual commercial 
application of that? You know, a comparison is in Pennsylvania 
where there are companies that make a profit burning waste 
coal. You know, they've figured out a way to convert that into 
something that can still produce energy. If it's easy to 
extract minerals from those same coal piles, what does the 
future look like in terms of how we might actually get to 
commercialization?
    Dr. Schwartz. Well, I will say there are two issues. Both 
of them deal with the economics. One is being able to develop 
the large-scale processing plant, and the second would be how 
do you move that processing plant to the location where the 
acid mine drainage is located or other sources are located. So 
that may be incompatible, so then the challenge would be how do 
you develop somewhat mobile units that could move from one acid 
mine drainage location to another to another to another. So the 
bottom line I believe, as with most things, it's economics. How 
do you do this economically, either to develop the chemistry 
processing but then also to locate that chemical processing 
facility or to be able to move it where it needs to be.
    Chairman Lamb. Thank you. That's actually the same 
challenge with people who burn waste coal is the transportation 
cost is almost everything to them. Thank you.
    Dr. Schwartz. As with recycling as well.
    Chairman Lamb. Yes. Mr. Weiss, first of all, thank you for 
being here and for sharing that story. It's such a clear 
example of success. I was trying to just understand the 
timeline. Did you first get the Department of Energy grant in 
2004? Is that right?
    Mr. Weiss. We began work with CMI approximately 5 years 
ago.
    Chairman Lamb. OK.
    Mr. Weiss. So we had done some earlier work on scandium-
containing alloys for high-temperature applications before 
that.
    Chairman Lamb. I see. So that was kind of a different 
project.
    Mr. Weiss. It's a different project, correct.
    Chairman Lamb. I was sort of just trying to understand the 
length of time from when you started working on the aluminum-
cerium alloys, with DOE support, to sort of commercialization, 
what that looked like.
    Mr. Weiss. Well it's been about 4 years.
    Chairman Lamb. Four years, OK.
    Mr. Weiss. We had our earliest customer about 2 years in--
it was an early adopter customer who really was interested in 
the performance of the material and weren't required to go 
through a lot of extensive testing. Working with much larger 
customers, Fortune 100 customers, the testing regime is much, 
much longer, as you can imagine.
    Chairman Lamb. And do you think you would have been able to 
accomplish this without Federal support?
    Mr. Weiss. Absolutely not. We can make the castings. We 
know how to make the castings. We know how to alloy material, 
but understanding what you have, doing the microstructural 
analysis, understanding the mechanisms in play in order to 
understand the strengthening of the alloy, we don't have those 
capabilities at all. And the national labs have them in 
abundance.
    Chairman Lamb. Thank you. Mr. Weber, you're recognized for 
5 minutes.
    Mr. Weber. Thank you. I don't know where to start. This is 
great.
    Dr. Hayes, I owned an air-conditioning company for 35 
years, so all this stuff about energy transfer and freon and so 
on and so forth is really interesting to me. You said that you 
used helium, and of course your budget was flat. That didn't 
escape me, and helium has gone up 400 percent in your 
testimony. And then you also said you had to decommission 
magnets and that they have to be filled every three to four 
weeks.
    Dr. Hayes. Yes, that's correct.
    Mr. Weber. So magnets use helium?
    Dr. Hayes. Indeed. So they're using helium to achieve 
what's called a superconducting state to create the magnetic 
field.
    Mr. Weber. OK. Is that very low cryogenic temperatures?
    Dr. Hayes. Yes, it's 4 Kelvin, a very low temperature, 
about the temperature of outer space as an equivalent.
    Mr. Weber. Put that in Fahrenheit for me, will you.
    Dr. Hayes. In my written testimony I believe I have it. 
It's minus 450, minus 460. I can get you the exact number.
    Mr. Weber. I keep talking about inches and yards, and my 
keep kids keep telling me have to get into the metric system. 
They said get in the metric system, Dad. I said I'll get there 
inch by inch. Just don't push it.
    Dr. Hayes. Minus 452 is the exact.
    Mr. Weber. Minus 452. OK. Well, freon freezes and minus 
four something. I took that class 30-something years ago. You 
said helium will get the coldest that we have. What's the 
second-coldest?
    Dr. Hayes. Good question. I believe hydrogen, perhaps 
hydrogen.
    Mr. Weber. Is it hydrogen?
    Dr. Hayes. Yes.
    Mr. Weber. OK.
    Dr. Hayes. The molecule hydrogen.
    Mr. Weber. OK. And I thought you said that helium 
evaporates as we use it.
    Dr. Hayes. It does.
    Mr. Weber. OK. But then you also said we want to try to 
collect it.
    Dr. Hayes. Yes.
    Mr. Weber. Did I misunderstand that?
    Dr. Hayes. No. So what I meant is two things. One is 
because it's inert, as it evaporates, it escapes the 
atmosphere. It is, if I'm not mistaken, one of the only 
elements to do so. So whatever we have here on the Earth that 
we release is gone. So by----
    Mr. Weber. It escapes the atmosphere----
    Dr. Hayes. Yes.
    Mr. Weber [continuing]. As it goes into outer space?
    Dr. Hayes. It goes into outer space.
    Mr. Weber. And now you know why outer space is so cold.
    Dr. Hayes. That's very funny.
    Mr. Weber. Yes.
    Dr. Hayes. So by recycling it and keeping it contained, 
then we can continue to reuse it. Let me give you a quick 
analogy.
    Mr. Weber. But how do you recycle it, Doctor, if, when you 
use it, you use it up?
    Dr. Hayes. So imagine the radiator of your car. It's like a 
cooling fluid that can be circulated around and around. Sure, a 
little bit leaks out and it must be topped off, but----
    Mr. Weber. OK.
    Dr. Hayes [continuing]. That kind of recycling.
    Mr. Weber. But you want a closed loop. Is that helium 
pressurized? If it's at low pressure, it's a liquid, right?
    Dr. Hayes. It's a closed loop----
    Mr. Weber. It's a closed loop.
    Dr. Hayes [continuing]. And all we have to do is recapture 
the gas, compress it again into a liquid, and then reuse it 
around and around.
    Mr. Weber. So how do you recapture that gas?
    Dr. Hayes. Through piping generally and through large bags 
that can have space to hold all that gas.
    Mr. Weber. OK. But you wouldn't literally expect for that 
to be in the radiator of your car because it's too cost-
prohibitive and too expensive?
    Dr. Hayes. Indeed, but if we could co-locate helium using 
equipment and several users----
    Mr. Weber. OK.
    Dr. Hayes [continuing]. Could all use of such a system.
    Mr. Weber. You keep calling helium inert. For the audience, 
inert, i-n-e-r-t, not a nerd. Yes, I'm the nerd here because 
all this stuff fascinates me. So thank you for that.
    Mr. Weiss, I'm going to jump over to you. You said the need 
for elevated temperature for aluminum alloys--again, I was in 
the air-conditioning business. We get a lot of welding, copper, 
and there's a lot of braising and stuff that goes on. And you 
said you are considering cerium and dysprosium. Was that the 
other one?
    Mr. Weiss. Well, cerium is the element that we are using.
    Mr. Weber. OK.
    Mr. Weiss. Dysprosium is too expensive to use.
    Mr. Weber. Oh, I got you.
    Mr. Weiss. Right.
    Mr. Weber. So the need for elevated temps, so when you do a 
high-temp alloy aluminum casting, what kind of temperature can 
you expect to encounter? Is it 200 degrees? Is it 1,200 
degrees? Again, I'm Fahrenheit.
    Mr. Weiss. So in Fahrenheit most aluminum alloys lose all 
of their strength around 300 degrees Fahrenheit. And so what we 
are doing and what we've indeed demonstrated on these alloys is 
reasonable mechanical properties all the way up to 600 degrees 
Fahrenheit.
    Mr. Weber. What application would that apply to? Who would 
use that?
    Mr. Weiss. There's a couple things. The turbochargers, 
which are getting hotter and hotter as you try to improve 
engine efficiencies; things like cylinder heads, as you 
increase the power density, the temperature goes up. Those 
would be two of the major potential manufacturers.
    Mr. Weber. Do you sell to the automotive market for like 
engine blocks for example?
    Mr. Weiss. We do right now, not in aluminum-cerium alloys 
yet, but they are being tested by them.
    Mr. Weber. So is there a higher--and again, I'm just the 
technical nerd that I am, is that for diesel engines? Is that 
higher than gasoline engines?
    Mr. Weiss. Yes, it is. And most of the work that we're 
doing is for diesel engines currently.
    Mr. Weber. OK. Well, I've got other questions and, Mr. 
Chairman, I'm going to yield back.
    Chairman Lamb. I recognize Chairwoman Johnson for 5 
minutes.
    Chairwoman Johnson. Thank you very much, Mr. Chairman, and 
thanks to all of our witnesses who have come.
    I'm a little concerned about some of the reactions. Dr. 
Schwartz, in your testimony you discuss both the short-term and 
the long-term risks of critical materials supply chains. Could 
you discuss the differences between the two, and the possible 
short- and long-term solutions available, or their approaches?
    Dr. Schwartz. Short-term, most of those supply risks are 
political or geopolitical in nature, meaning--and we can use 
the example from 2010 of the rare-earth crisis where over the 
previous 30-some years where in the 1960s the U.S. used to be 
the number-one producer of rare-earth oxides in the world at 
the Mountain Pass mine. Over that subsequent 30 years, most of 
the world's mining, processing, and fabrication of rare-earth 
elements came out of China. Then there was a price spike, which 
led to increases in prices up to maybe 50 times for certain 
elements. That is the type of short-term geopolitical risk that 
could occur in rare-earths, as it did previously, or in other 
materials. Currently lithium is not produced in significant 
quantities here in the U.S.
    Long-term, that geopolitical risk remains. If we become, as 
a country, more reliant on importing materials like lithium for 
batteries or whatever that next critical material could be, 
that is one source of the long-term risk. The other source of 
long-term risk is if we, as a community, discover the next 
great functional material, whether it is for quantum computing 
or caloric cooling, could be any of that. If that demand for 
that new technology outweighs current production either in the 
United States or in the world, that also sets up for long-term 
critical materials risk.
    Chairwoman Johnson. Well, how do you think that the 
research community has responded to this reaction from China, 
especially in alleviating some of these risks?
    Dr. Schwartz. So the United States, Japan, European Union 
have a yearly get together, the Trilateral Meeting to discuss 
critical materials and the response to those critical materials 
needs. Japan has its approach. The European Union has its 
approach. The United States has focused its resources on the 
Office of Fossil Energy, National Energy Technology Laboratory 
program to extract rare-earths from a known resource we have 
here in the U.S., and that is coal and coal byproducts. And 
that team is making excellent progress. They are now to the 
point where they believe they can make salable, low-cost, high-
purity rare-earth oxides.
    The second major program, Critical Materials Institute has 
made significant progress across all of the supply chains from 
diversifying the supply, improving reuse and recycling, and in 
developing substitutes. An example that I put in the written 
testimony is about replacing some of the more rare rare-earth 
phosphors in fluorescent lamps. Fluorescent lamps use a tri 
phosphor red, green, and blue. The red and the blue--and the 
green in particular use those more expensive heavy rare-earth 
elements. The CMI team created options for that lighting 
industry that required no rare-earths as a replacement for or a 
substitute for the red phosphor and only 10 percent of the 
rare-earths required for the green phosphor. So short-term the 
team is making significant progress in all three of those 
areas. Use less or make more.
    Going forward, it is that combination, it is that teaming 
of all the expertise. It's not just doing science. It's not 
just creating the next material, but it's understanding how 
that research could potentially improve the supply chains going 
all the way back to the techno-economic analysis, doing the 
road-mapping, talking to U.S. industries. What is most 
important now and then in the future? And a coordinated effort 
like I think is being done--there's a lot more to do, but that 
coordinated effort moves us along that path toward addressing 
those critical materials challenges. It's really that critical 
material framework that has been put in place over the last 5 
years that is now positioned to accelerate the development of 
options for the supply chain risks.
    Chairwoman Johnson. Thank you very much. My time is 
expired.
    Chairman Lamb. I recognize Dr. Baird for 5 minutes.
    Mr. Baird. Thank you, Mr. Chairman. And thank you, 
witnesses, for being here. We do appreciate all the information 
you bring us in terms of the latest technology regarding these 
rare-earth elements and Dr. Handwerker, I'm going to start with 
you. I must tell you that I'm always pleased to see my alma 
mater involved in the cutting-edge technologies, so thank you 
for being here.
    My question deals with the comments you made in your 
prepared testimony. You state that while government-funded R&D 
usually takes at least 20 years to move from discovery in the 
lab to success in the marketplace, then DOE's Critical 
Materials Institute or CMI inventions have been adopted by 
industry in as little as, say, three years. In your opinion 
what unique role do CMI's academic partners like Purdue 
University play in this success? And then what recommendations 
do you have for other academic institutions who may want to 
partner with the DOE energy innovation program?
    Dr. Handwerker. Thank you. First of all, boiler up.
    Mr. Baird. Boiler up.
    Dr. Handwerker. So at Purdue University one of our 
hallmarks is advanced manufacturing, and so much of what we do 
in critical materials is really focused in advanced 
manufacturing. Advanced mining is really part of the 
manufacturing infrastructure of the Nation.
    So at Purdue one of our key contributions to the Critical 
Materials Institute has been developing tools to do those 
economic analyses you were talking about, the logistics 
analyses that are so important in determining whether a 
technology, whether it be mining or recycling or reuse, are 
going to be profitable.
    We've created these tools that we have taught all across 
the Critical Materials Institute, we've taught the different 
project leads all the way down to even undergraduates how to do 
these economic analyses as they're developing these key 
technologies because if you look at the scientific literature 
and you want to find, OK, how do you get rare-earth materials 
out of magnets, there are many papers associated with that. 
There are many papers on the topic. The issue, though, is it 
can't be done economically with low environmental impact and in 
a way that actually gets the material, for example, in 
collection.
    So one of the things that we've been able to contribute are 
these economic analyses, lifecycle assessments, and also 
scenario analyses, which are also called out in H.R. 4481. It 
is so important to see, all right, how do we mitigate the risks 
for our critical materials?
    Mr. Baird. Thank you. Do any of the other witnesses have an 
opinion about what areas of fundamental research would provide 
the highest return on investment? So, Dr. Schwartz, start with 
you.
    Dr. Schwartz. One of the biggest bottlenecks right now is 
being able to separate the rare-earths from one another and 
then to take those separated rare-earth oxides and create metal 
out of it. That is not the environmentally cleanest process out 
there. So although the world, although Critical Materials 
Institute and researchers around the country are making 
progress understanding that separation process, being able to 
take one rare-earth oxide out of the collection of rare-earth 
oxides, as Dr. Handwerker pointed out, it's not yet economical. 
So fundamental and early stage research into those separation 
processes are I still think one of the keys. Critical Materials 
Institute is doing some but really not enough work in taking 
those rare-earth oxides and converting into metal because 
that's really in most cases the starting point for making 
materials to be put into systems, to be put into products that 
are needed for U.S. energy security, national security, and 
other things.
    So I think continued focus on that processing required to 
separate the rare-earth oxides from each other, make the metal, 
and then there are huge opportunities not only for critical 
materials but in the areas of recycling, recycling of the hard 
disk drives, which Carol pointed out, the recycling of lithium 
in batteries, in cobalt, in magnets from the first generation 
of hybrid electric vehicles, for example. Recycling science has 
been lagging behind for lots of reasons, including economics, 
but the science needs to be done to do that to develop 
processes to extract those materials economically.
    Mr. Baird. Thank you. And, Mr. Chairman, could we have the 
other two? I'm over my limit.
    Chairman Lamb. Sure. I think they can speak quickly.
    Mr. Baird. Thank you. Go ahead.
    Dr. Hayes. I'll be brief just to say that within the areas 
of magnet technology, we heard about neodymium from a couple of 
speakers. This is not part of my written testimony, but there 
are efforts at the National High Magnetic Field Laboratory to 
develop superconducting magnets that are based on high-
temperature superconductors. They would use different elements, 
they would have different designs, and we might be able to 
escape even the use of liquid helium. So that's a new direction 
that could be pursued but is not maybe heavily funded at the 
moment. But those designs exist.
    Mr. Weiss. So in response to, you know, how students play a 
role and how academic institutions play a role, it is 
interesting to me that having had demonstrated some success in 
the use of cerium, for example, in materials, there's probably 
four or five masters students now outside of the CMI envelope 
that have looked at that and are looking at various things that 
we have not looked at in CMI as far as particular mechanical 
properties or whatever. And so research gains a certain 
momentum after a certain point and more and more people get 
involved, and that's going to be good for everybody all the way 
around.
    Mr. Baird. Thank all of you, and I yield back.
    Chairman Lamb. Thank you. And I recognize Mr. Foster 5 
minutes.
    Mr. Foster. Thank you, Mr. Chairman, and to our witnesses.
    Let's see. I guess I'll start with Dr. Schwartz. How do you 
deal with the fact that you don't really know 10 or 20 years 
from now which elements will end up being strategic? You know, 
we're worrying about lithium, and there's an excellent chance 
that we'll succeed at battery R&D that looks at divalent 
chemistries, and it's magnesium which I don't think will ever 
be strategic--will be the key element in batteries. You know, 
there are alternative technologies like switched-reluctance 
motors that may make rare-earth motors irrelevant for many 
applications.
    You know, I think someone mentioned phosphorus for 
fluorescent bulbs, OK. They're being replaced by LEDs. I'm not 
sure whether white LEDs--I know they have some kind of wave 
shifter but I'm not sure that that's a rare-earth wave shifter 
where they get a blue LED and then use a full spectrum. So how 
do you deal with that, you know, both in the U.S. and in these 
international meetings?
    Dr. Schwartz. Dr. Foster, that is a great, great question. 
Like so many things, we have good visibility out to the 
horizon. We know what is coming up. We know that electric 
mobility is going to be very significant in this country and 
across the world. We suspect that quantum information sciences, 
quantum computing is going to be significant at some point. But 
we don't have visibility across the horizon, and that's why the 
development of the framework, the processes, the critical 
materials framework that allows us to take a look at the 
problem as early as we can, do that criticality assessment 
where we are trying to look out at new industries of the future 
to say this could create a demand for manganese. Manganese 
could be a great element. Magnesium could be a great element. 
But until there is a science and technology base, until there 
are applications beginning to show up, can we say, ah, that 
could be large. So I think from my perspective it's developing 
that enduring capability, that critical materials framework 
that we'll be in a position to address the next critical 
material as quickly as possible when that material becomes 
critical.
    Mr. Foster. And in these international meetings is there 
some understanding that the countries of the free world are not 
going to do what the Chinese did to the Japanese not so long 
ago and, you know, grab them by the neck and try to get 
concessions on something? Do you think there's a need for some 
sort of understanding along those lines at least among the free 
world?
    Dr. Schwartz. That's really outside my area of scientific 
expertise, but I would say yes. Just a few weeks ago Energy 
Efficiency and Renewable Energy Office, Advanced Manufacturing 
Office, and the Office of Fossil Energy organized a roundtable 
and workshop on rare-earths. We had representatives from Canada 
and from Australia talking about those partnerships that will 
help protect against a single country dominating a material, 
dominating a market. So I say yes, there is room for 
significant discussions to make sure that those partnerships 
are in place.
    Mr. Foster. And, Dr. Hayes, I guess as a Member of--
probably the Member of Congress that's responsible for venting 
more helium--I don't think I could count the number of 500-
liter helium dewars that experiments I've set up have vented to 
the atmosphere.
    You know, there are a number of approaches you can take 
here. You mentioned sort of local, like somewhere in the 
building multiple researchers would have a shared helium 
recycling facility. There are other approaches, for example, 
just using closed cryocoolers for these research magnets, 
which, you know, there are a number of different approaches 
here.
    And in addition, there's a class of helium applications 
where it's simply used as a nonreactive purge. And that's I 
think, particularly in a research environment, I think is going 
to be very hard to figure out how to sensibly, you know, 
recycle that. In addition, if it gets diluted enormously, then 
you have to cryogenically separate. I mean, there's a range of 
applications here. And why is it not best just to let a market 
price do this to try to figure out which ones of these 
applications make sense and which don't?
    Dr. Hayes. So the types of things that you're talking about 
require a capital equipment investment that is not necessarily 
part of the framework for most of us that have equipment from a 
decade ago, let's say, or further back. So that's the first of 
the answers. And then why not let a market price account for 
that? That's outside my area of expertise, too, you know, 
resource economics. But truly in this era where we have had 
cheap and abundant helium, we're now in a completely different 
world and how do researchers respond agiley to that new 
reality? That's what you're asking. And we need extra money for 
research for those of us who are subject to those price 
fluctuations.
    Mr. Foster. Yes. And also I think you're a little 
pessimistic on YBCO (yttrium barium copper oxide) and the other 
high-temperature superconductors. I think a lot of research 
magnets could be made today with high-temperature 
superconductors.
    Dr. Hayes. I completely agree. All I meant by the statement 
was just that it is not widely adopted yet. It's not 
commercially available as a magnet, and it's only in these very 
specialized centers of excellence that we have in the United 
States that have really capitalized on that.
    Mr. Foster. Thank you.
    Dr. Hayes. Thank you.
    Mr. Foster. And, Mr. Chair, if there's an opportunity for a 
second round of questioning, I'd appreciate it.
    Chairman Lamb. Sure thing. Mr. Biggs is recognized for 5 
minutes.
    Mr. Biggs. Thank you, Mr. Chairman and Ranking Member 
Weber. This has been an interesting hearing. Thank you for your 
presentations, all of you coming today.
    Dr. Hayes, I want to just kind of dovetail if I can a 
little bit on the discussion that was going on because you 
mentioned the price has gone up I think 450 percent during your 
career of helium, which indicates to me that either the demand 
has exceeded the supply or you've had an increasing scarcity. 
And I'm assuming that it's the latter that's an increasing--
maybe it's both, a combination of both. So can you kind of 
define that for me why the price has gone up?
    Dr. Hayes. The price is related to scarcity, as you say 
indeed.
    And again, this is outside my special expertise, so I 
wouldn't want to attribute it to any one cause, but certainly 
we have seen increasing demand for helium worldwide. It's used 
heavily in the electronics industry, for example.
    Mr. Biggs. OK.
    Dr. Hayes. So I think that it's both factors.
    Mr. Biggs. OK. And one of the ways to resolve it is both 
the way Dr. Foster said is finding alternatives to helium and 
what you've also said is reuse, recovery, and recycling.
    Dr. Hayes. Yes.
    Mr. Biggs. So there's a third alternative, and this is the 
part I know nothing about because I don't know where we find 
helium. If we we're talking copper and molybdenum, I could tell 
you about that, but I can't tell you about helium. Are there 
other markers, I mean, people are exploring, developing, we're 
talking oil and gas we would know that there's a field, we 
would be looking at geologic formation. We could kind of 
accurately--as we explore, we could see how much we're going to 
have. Tell me about helium. How do we find helium? What are our 
other markers that go with it? Is it coming with nitrogen? Do 
we find it with other gases? How does that work?
    Dr. Hayes. Currently, we extract helium through the process 
of extracting natural gas.
    Mr. Biggs. OK.
    Dr. Hayes. So it comes along for the ride. It is not in all 
natural gas deposits. And for it to be economically viable, I 
understand from others who are in this industry that you need 
roughly 1 percent of the makeup of that natural gas deposit.
    Mr. Biggs. I see.
    Dr. Hayes. And it's because the natural gas is trapped 
underground by rock formations, and luckily for us, the helium 
is there as well.
    If I may, let me put something into context for you.
    Mr. Biggs. Yes.
    Dr. Hayes. A single balloon of helium, a party balloon, if 
I do a back-of-the-envelope calculation on a pad of paper, the 
number of gas molecules that are there are coming about because 
of radioactive decay of uranium and thorium underground. That 
balloon takes an amount of half a pound of uranium that I could 
hold in the palm of my hand. It takes it 1 billion years to 
decay on that order.
    Mr. Biggs. Wow.
    Dr. Hayes. So we are constantly making more underground, 
but it's an atom at a time. So I favor recycling for that 
reason because we just don't want to let it escape the 
atmosphere.
    Mr. Biggs. Right. Very good. Thank you. That's very 
informative. And I'm glad you mentioned uranium because I come 
from Arizona. And in Arizona we have significant reserves of 
copper and uranium. And the President and his Administration 
has protected our national economic security from reliance on 
foreign supplies of critical minerals, ostensibly including 
uranium. But we're having a terrible time developing uranium. 
We're fighting that right now.
    The U.S. Geological Survey's list of 35 critical minerals 
encompasses materials, as you know, for clean energy 
production, nuclear deterrence, and enabling smartphones, et 
cetera, around the world. But instead of buying from the 
domestic uranium mining companies, we are looking to China for 
uranium right now and other countries. We import almost 99 
percent of our uranium. And that makes it really, really a 
security risk for us, and that's something we should be aware 
of. And so I think we should be exploring all those options.
    And so I'm going to ask each one of you in the brief time I 
have left, as we've talked about these things, if you can kind 
of expand and advance the idea of what you use with industry 
partners, specifically those who might be in the academic 
world, what do industry partners do with you, and how do they 
support your efforts and if you can expand on that for me.
    Dr. Handwerker, let's start with you and we'll----
    Dr. Handwerker. Yes. I'll start. I'll start here.
    Mr. Biggs [continuing]. Go this way. OK. Great.
    Dr. Handwerker. So one of the important parts of working 
with industry to see whether something could be economical is 
we delve into the economics in great gory detail to see what it 
would take to actually be competitive. And without doing that, 
then, you know, if we fall short, then it's not like 
horseshoes. You know, it really matters that we have gotten the 
economics right. And with it the economics challenges come the 
scientific challenges because it doesn't come for free. It's 
not like we can just marginally change the science to have 
these breakthroughs.
    So by working with industry really from the very earliest 
possible steps, then we can see what science that has already 
been developed that we can't use because it falls short of the 
economic, the environmental concerns as well. And so that's 
key. And also knowing in the end that we've done everything we 
could at the point of handoff at early stage but late enough 
stage that we've mitigated the risks for the companies because 
without the companies having those risks mitigated, they're not 
going to be able to get the capital needed to move forward.
    Chairman Lamb. And I'm going to recognize Ms. Stevens now 
for 5 minutes. We can come back in a second round if there's 
more to be said on that topic. Thank you.
    Ms. Stevens. Thank you, Mr. Chairman, for this very 
important hearing on a critical topic with such great expertise 
here.
    I'd like to submit a letter for the record from Umicore. 
It's a company with operations in my district that is recycling 
end-of-life electronics and batteries spent in automotive and 
industrial catalysts and other metals-containing materials that 
can be recycled.
    There's also a company I'd like to highlight who I've spent 
some time with, SoulBrain, which produces low-moisture and 
high-purity lithium-ion electrolyte. They are the only 
electrolyte manufacturer in my district for lithium-ion and the 
only one in Michigan and one of two in the country. And why the 
geography is significant is that I represent the country's 
largest concentration of automotive suppliers, and we're 
ushering in this electric vehicle wave but with one in Michigan 
that's responsible for electrolytes. So I think the imperative 
and the urgency around today's discussion is quite apparent.
    Mr. Weiss, your company, it's private, a private company?
    Mr. Weiss. That is correct.
    Ms. Stevens. OK. And if you could share, what's your, you 
know, revenues or profit or valuation?
    Mr. Weiss. Yes. So we sell about $50-million worth of 
castings per year.
    Ms. Stevens. That's great. And you're employing about 260--
--
    Mr. Weiss. Two hundred and sixty people, correct.
    Ms. Stevens. Fabulous. And you're in the Midwest as well--
--
    Mr. Weiss. That's right.
    Ms. Stevens [continuing]. Which we appreciate. And you 
know, we're talking a lot about the R&D, but I want to talk 
about the level playing field. And if you could just shine a 
little bit of light on that from your vantage point, do you 
feel like we have a level playing field when it comes to these 
types of materials and our access to these materials?
    Mr. Weiss. Well, we clearly don't--I--in my mind. Most of 
the materials or many of the materials are imported from China.
    Ms. Stevens. Have your payments gone up since you're 
importing from China?
    Mr. Weiss. No.
    Ms. Stevens. What you're paying for them? OK. They've gone 
down?
    Mr. Weiss. They're roughly the same, roughly the same. Yes, 
I mean, there's an impediment there because, you know, 
everything from potentially transportation costs, to time, to 
quality of material, and so on, those are all negatives. And we 
have the wherewithal to do it in the United States or we're 
developing the wherewithal to do that all in the United States, 
and we haven't quite done it yet.
    Ms. Stevens. And what else could it take to help us develop 
that wherewithal? What else do we need besides the R&D efforts?
    Mr. Weiss. Well, I think you need the R&D effort. I think 
you need customers to help support the work that you're doing, 
not always buy from the lowest-cost producer, you know, so 
being in the automotive supply market, we understand that a 
little bit. And so there's a lot of effort to reduce the cost 
of materials obviously.
    Ms. Stevens. Right. And there's a demand factor as well. 
And as my colleague Dr. Foster talked about, the flexibility 
for the delineation of what is dubbed a strategic material 
whereas that could change, I think we also need some 
flexibility in terms of procurement. Wouldn't you agree, Dr. 
Schwartz, in terms of how we maybe maintain or gain access to 
these materials and the ways in which we go about them, and the 
ways in which we incentivize the potential consumer activity 
within our own markets?
    Dr. Schwartz. I do agree with that, Representative Stevens. 
The United States has plentiful natural resources. We do have 
rare-earths. We do have lithium supplies. The challenge really 
is overcoming the economics to compete globally. And I can't 
speak to what other countries' policies are, but when it comes 
to mining, mining has environmental challenges. And our 
challenge as a country is to develop clean, environmentally 
acceptable mining processes. And to this point that's not yet 
economical. So it is very challenging for U.S. mining interests 
to get into that business because it takes so long to get 
approved for a new mine, because the environmental regulations 
are what they are. And we as a country haven't yet developed 
clean mining technologies because there hasn't been a clean 
mining program out there.
    So we have lots of challenges. We have the natural 
resources here.
    We just need to figure out a way technically and 
regulation-wise to extract those elements so that your 
companies in Michigan have all the lithium that they need to 
produce batteries and electrolytes for----
    Ms. Stevens. And so they can compete----
    Dr. Schwartz. So they can compete.
    Ms. Stevens. While we're certainly enthusiastic of the 
legislation on the docket, I am sniffing that there's 
opportunity for further legislation. But with that, Mr. 
Chairman, I remain enthusiastic for a second round of 
questioning and yield back my time.
    Chairman Lamb. Thank you, and recognize Mr. McNerney for 5 
minutes.
    Mr. McNerney. Well, I thank the Chair. And I thank the 
witnesses this morning.
    It's really encouraging to hear some of the successes of 
the CMI. We created that in part because of concern about 
China's dominating the market and what we've seen with Japan 
lately sort of verified that. And they don't seem to have the 
environmental concerns and regulations that Dr. Schwartz just 
referred to, and that's a bit of a challenge for us, but I'm 
sure we can get through it.
    The one question I have--is there an opportunity to, Dr. 
Schwartz or anyone, to obtain critical rare-earth materials 
through fracking and/or geothermal energy production?
    Dr. Handwerker. Not as far as I know.
    Mr. McNerney. Nobody has a positive answer on that?
    Dr. Hayes. Helium does not come through fracking processes 
either so I'll just say that.
    Mr. McNerney. All right. Thanks. Does the difficulty of 
obtaining rare-earths--and this follows up with Ms. Stevens' 
questions--give other countries a critical advantage on battery 
manufacturing? Dr. Schwartz?
    Dr. Schwartz. Again, the United States has enough lithium 
reserves to become a net exporter to the world.
    Our challenge is, again, the economics of extracting that 
lithium and turning it into a product that can be sold on the 
world market. We have the material. We just have to figure 
out--again, we have to overcome those barriers to the 
scientific processes of how do we extract the lithium from 
geothermal brines, how do we extract the lithium from mine 
tailings. I think we have that. I think we have developed that 
process. So then the question becomes how do we do that 
economically considering some of the environmental regulations 
to make that extraction and processing cost-competitive on the 
world market.
    I believe you are correct; the rest of the world does not 
have the same hurdles that we do. Our environment is incredibly 
important, and we need to protect it. We need to come up with 
ways to mine more environmentally friendly.
    Mr. McNerney. Thanks. Dr. Handwerker, as each critical 
material has a different supply chain and market structure, can 
you speak to why it's so important that H.R. 4481 authorize the 
DOE to develop more comprehensive analysis on market chain?
    Dr. Handwerker. So, first of all, all of the critical 
materials are byproducts of similar kind of primary mining 
operation. And so it's going to be important within H.R. 4481 
to really work with those supply chains, including existing 
mining in the United States, to be able to extract the rare-
earth materials that are there in sometimes very low levels, as 
Dr. Schwartz mentioned. They are there, but the challenge is 
really how to extract them with these really part-per-million 
or tens-of-part-per-million level.
    So, first of all, the mining supply chain, we really are 
looking at the Critical Materials Institute more holistically 
at which of these different primary mining: Copper, iron, 
niobium, which ones can provide each individual critical 
material. In terms of the recycling and reuse, yes, each supply 
chain is going to be different. And so that's why we're 
focusing on the ones where we can have the highest impact. So, 
for example, for rare-earths in hard disk drives, in magnets, 
and hard disk drives, those are--I think we know what a 
circular economy would have to look like, what the full supply 
chain would look like.
    For engines, that's the primary use of rare-earth magnets 
in the U.S. We are working on that because those are very 
different in terms of products, in distribution, so there are 
many more challenges for those. So, yes, all the supply chains 
are different, and we have to select which ones to look at.
    Mr. McNerney. Can items be manufactured in a way that makes 
their extraction of rare-earths from the recycled products 
easier?
    Dr. Handwerker. Yes, absolutely. So one of the things I'm 
very proud to be able to report is our collaboration with 
Seagate, they now have a task force in determining how to reuse 
the whole magnet assembly in next-generation hard drives. And 
the Seagate CEO has said they're going to make hard drives from 
hard drives thinking specifically about the rare-earth magnets 
and the magnet assemblies.
    So, yes, they can be, but it really takes the engagement 
across the supply chain, and I think Critical Materials 
Institute has played a leading role in that to show what's 
possible, how to take the assemblies out, how to put them back 
into the hard drives. And then if they can't be put into the 
hard drives, how to create all the different pathways in the 
supply chain to get them back into new hard drives starting out 
from the oxides.
    Mr. McNerney. As I yield back, I'm going to say that I 
think Congress should show some leadership in encouraging that 
behavior in industry. Thank you. I yield back.
    Chairman Lamb. Thank you. And I want to thank our colleague 
Mr. Swalwell for joining us today and offering the legislation 
that is kind of underlying this hearing. And with that, I 
recognize Mr. Swalwell for 5 minutes.
    Mr. Swalwell. Thank you. And I thank the Subcommittee 
Chairman and Ranking Member, as well as Chairwoman Johnson and 
the Ranking Member of the Committee, for holding this hearing 
and allowing me as a non-Committee Member but a former 
Committee Member to participate. This is an issue of great 
importance to our country, particularly my district with two 
national laboratories and one that I have worked on for many 
years.
    And I was hoping, Dr. Schwartz, to start with you. When 
this bill last came to the floor in 2014, there were some 
concerns expressed about the impact it would have on government 
interference in the private sector. And I was wondering if 
you're aware of those concerns and how you would respond to 
such concerns.
    Dr. Schwartz. Thank you for the question. I am not 
specifically aware of what those concerns are. I have heard 
that--and there are always debates about what is the role of 
Federal funding for industrial research. The Critical Materials 
Institute is focused very much so on the early stage research, 
but we rely on industrial input and guidance as early as we can 
get it. In many cases researchers at universities, at national 
laboratories think they may know what the whole question is, 
what the whole problem is, but don't understand all of the 
corporations' research that have gone on for decades and 
decades and decades. So having that team with industrial input 
early saying, you know what, we've looked at that part of the 
problem, don't spend your time and money there. Having that 
industrial input to say, you know what, when we look out 10 
years, 20 years, these are our fundamental challenges, that's 
where national labs and academia can play the biggest role.
    Mr. Swalwell. Thank you, Dr. Schwartz.
    And, Dr. Hayes, you're a great example of the talent that 
has come out of Lawrence Livermore National Laboratory. And as 
a researcher and professor of chemistry, could you describe the 
importance of critical materials not only to our economy but 
also our national security?
    Dr. Hayes. I was not involved in the national security aims 
at Lawrence Livermore National Labs, but I think Dr. Schwartz 
may be better able to answer that. But certainly what we have 
been hearing today is about these many critical elements that 
come and enable many applications, whether it's for just 
regular everyday life, new batteries, you know, new types of 
engines and the like, and also in the national security 
apparatus of course, those are exotic materials that certainly 
are on the list.
    Mr. Swalwell. And you are familiar with the annual budget 
for the Critical Materials Institute, which is $25 million. My 
legislation would raise the baseline to $30 million with a 5-
percent increase each year for 5 years. How would this 
additional funding benefit research?
    Dr. Hayes. So I am not enabled to comment on that.
    Mr. Swalwell. Sure, if Dr. Schwartz wanted to help us with 
that one.
    Dr. Schwartz. There is so much to do, just like there is so 
much for all of you to do and there's not enough time. There's 
so much for the national labs to do, for academia to do in 
terms of that early stage research. I very much appreciate your 
proposed bill. The Critical Materials Institute would benefit 
immensely by having that baseline increase. That would allow us 
to continue to focus on the most critical elements or 
continuing to develop that critical materials framework that 
will position this country, that will create that enduring 
capability to address critical materials as new ones come 
about.
    Mr. Swalwell. One other issue is our global 
competitiveness. And within weeks of this bill coming up for a 
vote in 2014--and we got very close to passing it--China was 
found in violation by the World Trade Organization for its 
practices related to rare-earth elements. In fact, in this most 
recent trade war with China, they have sought and have publicly 
stated that they would use their rare-earth advantage against 
the United States. Can any witness talk about how continuing to 
invest in critical materials innovation could help us have an 
edge or at least get on the same plane as China?
    Dr. Schwartz. So, ideally, just like the United States is 
striving to and in many cases has achieved energy independence, 
we would like to have that same independence in everything. We 
would like to be fully dependent on our own production 
capabilities, on our own manufacturing capabilities so that we 
can make the new energy systems, we can make the new 
technologies and electronics, and we can make defense systems 
when we need to make it here. We've lost a lot of that 
capability not because we don't have the natural resources here 
but because of environmental issues, because of cost of labor. 
It was more efficient for U.S. companies to outsource. In terms 
of energy security, national security, I think the United 
States would benefit by bringing some of that back here.
    Mr. Swalwell. Thank you to all the witnesses. And thank you 
to the Subcommittee Chair. And also thank you to the staff for 
working with us over the years to bring this forward. I yield 
back.
    Chairman Lamb. And there's been an interest in a second 
round of questions at least from Dr. Foster, so, Dr. Foster, 
you're recognized for 5 minutes.
    Mr. Foster. Certainly. And thank you. Let's see.
    Mr. Weiss, these aluminum-cerium alloys, is there a 
compromise in the machineability or are the advantages all in 
casting? Is there any downside to these?
    Mr. Weiss. No. There is not a machineability issue with the 
alloy, the machine, just as other aluminum alloys do. The one 
downside that we are working on currently is in improving the 
ductility of those alloys for high toughness type of 
applications.
    Mr. Foster. And you mentioned that you have a scheme in R&D 
for the direct reduction of the cerium carbonates.
    Mr. Weiss. Correct.
    Mr. Foster. Can you say little bit about it?
    Mr. Weiss. Yes. And we've done this on a laboratory scale. 
What we do is we inject the carbonates into the liquid alloy 
under the surface. The speed of reaction----
    Mr. Foster. This is during the refining of the aluminum 
integrated into the----
    Mr. Weiss. Once we melt the aluminum at least--so we start 
with a batch of pure aluminum. We introduce the carbonate under 
the surface of that melt. The kinetics are such that it pretty 
much instantaneously changes to metallic cerium. And then the 
aluminum cerium then are metallic. And then based upon the 
reduction chemistry, we're left with aluminum oxide, which is 
not a good thing, and then we remove the aluminum oxide without 
removing the cerium.
    Mr. Foster. OK. All right. And so you still ultimately have 
to get the energy in to reduce it.
    Mr. Weiss. Correct.
    Mr. Foster. OK. All right.
    Mr. Weiss. Correct.
    Mr. Foster. Yes, it sounded like you had some magic around 
that, but it's basically a simplification of the process.
    Mr. Weiss. It's a simplification of the process.
    Mr. Foster. Right.
    Mr. Weiss. It does not require, therefore the way we do 
things now which is to buy metallic cerium and alloy it in.
    Mr. Foster. Right. Now, do you find that our patent system 
is serving you well? You know, you're developing all this neat 
technology and of course the obvious worry is you'll develop it 
all, get it going, and then find that China has looked online 
at all of your publications and set up a big factory that you 
can't compete with?
    Mr. Weiss. I guess it's always a concern.
    Mr. Foster. Yes. And this is something I struggle with all 
the time.
    Mr. Weiss. Right.
    Mr. Foster. You know, that we developed all this great 
technology, and then because of labor costs or environmental 
costs or some little advantage, all of the real benefit comes 
not only in the making of the original chemicals but the value-
added chain for permanent magnets and so on that have 
strategically been--so, you know, I think ultimately we have to 
find some way to gently interfere with the workings of the free 
market here, that the free market has applied--has--you know, 
the free market has said, OK, the low-cost worldwide producer 
of, you know, rare-earth magnets is a place where they don't 
have environmental regulations and they have low cost of labor. 
And they can, you know, go on the internet and pull all the 
intellectual property over for zero cost.
    And so under those circumstances we cannot sustain a large 
class of industries unless we interfere strategically with the 
workings of the free market. Is there any way around that logic 
that you're aware of? Do we have to, you know, either subsidize 
or put quotas on imports or something like that to preserve 
these industries?
    Mr. Weiss. From my perspective the most important part is 
the research side of it. I mean, as a company that strives to 
make money, we have to deal with the problem all of the time. 
And so we have done things like automate our operations and 
find less-expensive ways to do things. And from the standpoint 
of this direct reduction, we're looking at the next step is can 
we automate that process to make it as inexpensive as possible 
so we are relatively unassailable from the international part.
    Mr. Foster. Yes, but then you depend on the protection of 
that intellectual property to work which is another ongoing 
challenge.
    I'd like to change the subject a little bit. I'm really 
impressed at the wonderful things you're doing in materials 
science. How is the situation in recruiting the next generation 
of materials scientists? Do they all want to go and do, you 
know, machine-learning AI stuff, or do they want to, I guess a 
generation ago they went into finance. Are you having better 
luck that way? Do young kids understand the magic of what 
you're doing and how it can change the world? Dr. Hayes?
    Dr. Hayes. I would say absolutely. In my line of work I'm a 
spectroscopist, but I'm surrounded by so many young people that 
are just chomping at the bit to get into these problems in part 
to solve issues related to the environment, to climate change 
and the like. And so the development of new materials is driven 
by a large sort of----
    Mr. Foster. And what fraction of the graduate students that 
you all work with are foreigners that we're going to send home 
when they get their Ph.D.s?
    Dr. Hayes. In my program, 50 percent.
    Mr. Foster. Fifty percent is a typical number?
    Mr. Weiss. Yes, that's typical.
    Dr. Schwartz. Yes.
    Dr. Hayes. Yes.
    Mr. Foster. And so I have introduced legislation to try to 
fix that. And I look forward to your support. Well, thanks so 
much, and I yield back.
    Chairman Lamb. I recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you. Are we going to be able to have a 
third round do you think? Man, where do we start? Quantum 
computing--well, let me back up because I'm on the hill of what 
Bill was saying. I'm really interested in that, especially when 
he was talking about gently doing something to the free market.
    So I want to go to you, Mr. Weiss. If you can tell us, 
what's the source of most of your aluminum?
    Mr. Weiss. Canada.
    Mr. Weber. Canada?
    Mr. Weiss. Canada, yes.
    Because we deal so much in military products, we are 
actually restricted from buying aluminum from some sources.
    Mr. Weber. OK.
    Mr. Weiss. But nonetheless, we've always bought from Canada 
and probably if we were doing commercial products, we'd buy it 
from Canada.
    Mr. Weber. OK. Well, that's good to hear. We're hoping to 
get the USMCA (United States-Mexico-Canada Agreement) done, 
just FYI, so I thought I'd get that plug in there.
    I want to switch to quantum computing because, you know, 
last year we passed that H.R. 6227, National Quantum Initiative 
Act about quantum computing. Are each of you using any of 
that--maybe not you, Mr. Weiss. I don't know. But are you all 
finding that useful? And what percentage and tell us how that 
works for you.
    Dr. Schwartz. So the legislation I believe is useful from a 
national laboratory perspective. That is providing instructions 
and guidance to the national labs, to universities that says 
the United States thinks that this is a very important 
direction to pursue. Through the Department of Energy, there 
have been a number of funding opportunity announcements, a 
recent one on quantum information sciences. Ames Laboratory won 
one of those awards on developing new algorithms and codes to 
work on quantum computers. There is the Energy Frontier 
Research Center program through basic energy sciences within 
the Office of Science, Ames Laboratory, and many others 
recently won a New Center Award to develop topological 
semimetals which have the potential to contribute to quantum 
information science.
    Mr. Weber. So you're not there yet, but you see it coming?
    Dr. Schwartz. So there are quantum computers out there. 
Ames Laboratory does not have one. You can purchase a quantum 
computer I think through a company in the State of Washington. 
A number of labs do have those existing quantum computers where 
they are trying to further develop the capabilities.
    Mr. Weber. OK. And do any of you all--and this could be for 
you, too, Mr. Chairman and you, too, Bill. It seems like a week 
ago in the news that China cut off exports to Japan of a rare-
earth mineral or essential element. Did anybody pick that up in 
the news? Does that make sense?
    Mr. Foster. Yes, back in roughly 2010 China cut back the 
rare-earths for magnet purposes to Japan as some--I can't 
remember what they were fighting about, but it was----
    Mr. Weber. Yes, I was thinking like in the last week of 
news I saw it come across my Apple watch of all things.
    Mr. Foster. Well, it's a threat there that's all the time.
    Mr. Weber. What, my watch or the trade thing?
    Mr. Foster. No----
    Mr. Weber. Yes.
    Mr. Foster. No, the Chinese threat. They have the----
    Mr. Weber. Well, I got you.
    Mr. Foster [continuing]. Japanese by the throat here.
    Mr. Weber. OK. Well, I don't know if you all were paying 
attention or saw that.
    So here's an interesting thought. In your discussion, Dr. 
Hayes, with Mr. Baird earlier, you talked about using liquid 
helium and stuff like in some of the high heat areas, so I'm 
thinking how about waste heat recovery in those applications? 
Has any thought been given to that?
    Dr. Hayes. To the best of my knowledge I do not know of 
that aspect being capitalized.
    Mr. Weber. No? Anybody else?
    Mr. Weiss. I will point out that in the production of 
aluminum-cerium alloys, which is my thing, that the formation 
of the intermetallic is exothermic, and therefore, the total 
heat content per pound of aluminum melted is lower in the 
aluminum-cerium alloy.
    Mr. Weber. In some of Dr. Schwartz's testimony, he said 
that CMI researchers discovered a way to reduce the processing 
temperatures from 3,100 degrees centigrade to 800 degrees 
centigrade through electrolysis in a molten salt. Do you know 
what those correspond to in Fahrenheit, 3,100 centigrade?
    Dr. Schwartz. Let me get back to you on that one.
    Mr. Weber. OK. You're supposed to know these numbers right 
off the top of your head, no heat from this end, pun intended.
    Dr. Schwartz. That's a National Energy Technology's 
Laboratory work----
    Mr. Weber. OK.
    Dr. Schwartz [continuing]. That I'm less familiar with.
    Mr. Weber. So in those applications there would be some 
possibility of getting waste heat recovery?
    Dr. Schwartz. I suspect the answer is yes.
    Mr. Weber. OK.
    Dr. Schwartz. Department of Energy colleagues of mine have 
been discussing how to take advantage of waste heat for the 
last few years.
    Mr. Weber. Right.
    Dr. Schwartz. And I believe there are relatively small 
programs funded through DOE, but this is an area that is ripe 
for additional research. If you look at those Sankey diagrams 
that show where energy is going, a tremendous amount is going 
to waste heat. And there are opportunities to do something with 
that, whether it's create electricity or just put it back into 
the process for metalworking, for example.
    Mr. Weber. Right. Well, I would suspect that the latter of 
those two would be the more friendly for what you're doing as 
opposed to try to put it to the grid. But anyway, these things 
just fascinate me. So I'm over my time, Mr. Chairman. I 
appreciate that. I yield back.
    Chairman Lamb. I recognize Ms. Stevens for 5 minutes.
    Ms. Stevens. Thank you, Mr. Chairman.
    Dr. Hayes, can you talk about the ways in which you work 
with Federal agencies and which agencies you work with in your 
helium recycling and storage efforts?
    Dr. Hayes. So the National Science Foundation is the major 
one of course. I am also funded by the Department of Energy, so 
they are concerned about these aspects. And then at times I've 
been fortunate to be invited to a helium users meeting here in 
D.C., and that involved the Defense Logistics Agency showing up 
and discussing. So I would say those are the three primary 
ones.
    Ms. Stevens. And I know you talked about this in your 
testimony. NSF is a funder of yours. And do you know through 
what programmatic division NSF funds you?
    Dr. Hayes. Yes. So math and physical sciences and 
specifically the Division of Materials Research and also a 
couple of other ones.
    Ms. Stevens. Yes. And do you know the average annual 
allocation of award that you're getting from NSF? And how 
strict are their boundaries for which they're funding you on?
    Dr. Hayes. So a typical grant amount is a 3-year grant, and 
the target amount is on the order of $360,000, so $120,000 per 
year in this program within the Division of Materials Research.
    Ms. Stevens. And so none of that goes toward labor costs?
    Dr. Hayes. Some goes toward labor, absolutely. No, graduate 
student labor and maybe a little bit of summer salary in my 
case.
    Ms. Stevens. So no one's getting rich off of that.
    Dr. Hayes. Oh, no.
    Ms. Stevens [continuing]. And so they're primarily funding 
you for the research side of the efforts but nothing for 
commercial application as--along with DOE, nothing for 
commercial application?
    Dr. Hayes. There are two programs that I've participated 
in. One is the Energy Frontiers Research Center, as well as the 
CCI, Centers for Chemical Innovation through National Science 
Foundation. Both have had strong emphases encouraging us to go 
into commercial directions. So there are small business 
partnerships that are nucleated and sort of grow out of those 
large team assemblies. But as an individual researcher, it is 
extremely hard on academic timescales to partner with industry. 
We'd like to, but it's difficult.
    Ms. Stevens. Which we have respect for that. Doctor, the 
remaining two of you that I know are, you know, directly tied 
into Federal research endeavors, do you mind just talking a 
little bit about your work with NSF? I know, Dr. Schwartz, you 
mentioned NSF in your testimony as well.
    Dr. Schwartz. As a Department of Energy national 
laboratory, we get zero funding through National Science 
Foundation.
    Ms. Stevens. Zero.
    Dr. Schwartz. Zero funding. And it's good. We're a 
Department of Energy national laboratory. One advantage that 
Ames Laboratory has is we sit on the campus of Iowa State 
University, the only lab that actually sits on a campus. And 
many of our joint researchers are joint faculty members, and 
they develop understanding, expertise, students, and postdocs 
through NSF, and sometimes that work is very relevant to the 
more mission-oriented Department of Energy research.
    Ms. Stevens. Yes. And you're able to have access to it, 
which is great. Yes.
    Dr. Schwartz. Very important, yes.
    Ms. Stevens. Yes. Thank you.
    Dr. Handwerker. So I've worked extensively with National 
Science Foundation. I've been at Purdue for 14 years. I've had 
major interdisciplinary programs in sustainable electronics, 
which thankfully I've been able to keep up those contacts in 
sustainable electronics, who are also part of hard disk drives, 
so we could bring some of these key contacts not only in 
educating our students, but also in connecting the technologies 
that they're developing, the science they're doing in actual 
practice.
    So in one program that ended recently we had 30 2-year or 
3-year fellows, all U.S. citizens, who got their Ph.D.s working 
in this program. So, yes, we work extensively with that.
    The other thing is that in action number six of the 
strategic plan, the President's strategic plan for critical 
materials, it is specifically focused on workforce development. 
So I've been talking and others at CMI have been talking with 
people at NSF who were in charge of this workforce development 
piece to see how we can actually expand the reach for critical 
materials, mining, recycling, substitution into NSF.
    Ms. Stevens. Right. Well, Dr. Handwerker, we also want to 
commend you for your educational background, including a 
bachelor of arts in art history. And now a Ph.D., you know, 
scientist and you're also working with NIST as well.
    Dr. Handwerker. And I'm also working with NIST very 
closely.
    Ms. Stevens. What our Chairman might know is that on the 
Subcommittee, which I chair, on Research and Technology, which 
has oversight of NSF and NIST, we are glad to be good funders 
of the, you know, rare-earth materials and materials work that 
all of you are doing and want to make sure that that makes its 
way into future legislation and that competitiveness and 
productivity and jobs are at the forefront. So thank you all so 
much. I'm over my time, but this was obviously a good one. I 
yield back, Mr. Chairman.
    Chairman Lamb. Thanks. Dr. Baird for 5 minutes.
    Mr. Baird. Thank you, Mr. Chair. And this round of 
questions is going to go to all the witnesses, but this is 
going to be a ladies-first round, but I want to know what 
policies that Congress, the Department of Energy, and other 
relevant Federal agencies might do to encourage industry-led 
research and development efforts in critical materials research 
and so on?
    But before we do that, Dr. Hayes, I noticed in your 
testimony that this is the International Year of the Periodic 
Table. Is that 2018 or 2019?
    Dr. Hayes. 2019.
    Mr. Baird. I noticed that helium was the second element on 
that, and then you also mentioned that it's very, very small 
and it can escape anything. Helium can escape anything. So I 
was wondering if we're doing any research on some kind of 
container. I'm just kidding you. Back on the question of what 
policies could Congress and Department of Energy and so on, 
other Federal agencies do to encourage industrywide research 
and development? So, Dr. Hayes.
    Dr. Hayes. I would start by saying basic research funding 
has been a challenge over the time of my career. And, you know, 
I think we need to see increases in that basic research funding 
and also encourage ties to industry and finding mechanisms to 
do so. Three-year grant cycles make it difficult to achieve 
those things.
    I might highlight tied to supply chain issues, this is 
maybe outside the purview of this Committee, but just to 
highlight that the strategic helium reserve that is being 
privatized in 2021, here we have an abundant source of helium, 
one of the top three producers worldwide. You mentioned a 
container. That is one of the only containers for helium. It 
keeps it underground, yet we're about to sell it off to a 
private company that may belong to a foreign entity. And so 
even though that's outside this Committee's purview, I think 
that that's something to keep in mind.
    So what can Congress do? Maybe keep the container, keep our 
production capacity of something that we are a leader 
worldwide. So I'll let others respond with that.
    Dr. Handwerker. So another important part of research and 
moving it actually to commercialization and creation of a 
supply chain is that it goes from research to development and 
demonstration. And what we've found in many cases is that we're 
not serving our country well by throwing the technology, the 
science over the wall and expecting then industry just to be 
able to take it forward without additional scientific help as 
they move forward at the development and demonstration stage.
    So I think that could be one important policy emphasis in 
making sure that we maintain those connections during the 
commercialization stage because in this technology readiness 
level (TRL), 1 through 4 is the early stage research. To get to 
commercialization, you've got 5 through 9, and that is where 
that valley of death happens. And the valley of death happens 
frequently because something wasn't determined in the early 
research stage. But if they had access to that research 
capability, then they could overcome it.
    Mr. Baird. Thank you. Dr. Schwartz?
    Dr. Schwartz. So there are big companies, very large 
companies that do fund critical materials research. CMI 
partners with a number of them. Ames Laboratory partners with a 
few others. And I know that there is significant investment by 
some of our largest companies in critical materials and other 
research. Small companies don't have the resources to do that. 
They simply can't afford. Those small companies often have 
access to small business incentive programs for jointly funded 
research.
    I think that if there are ways to incentivize U.S. industry 
to come forward and say these are what the biggest scientific 
challenges are going out 5 years or 10 years, that would be the 
areas that universities and national laboratories could have a 
big, big impact on.
    In terms of specific research, in terms of a specific 
hurdle in order to become profitable or to make a larger impact 
on the global supply chain, I'm sure policies could be put in 
place that would--it's something that Representative Foster 
maybe alluded to--are there ways that Congress or the United 
States could make U.S. companies more competitive in the 
international market.
    Mr. Baird. Thank you. And, Mr. Chairman, could I have Mr. 
Weiss comment?
    Chairman Lamb. Yes.
    Mr. Weiss. Yes, I think it's important to emphasize what 
Dr. Handwerker said about the industrial collaboration. We 
see--TRL levels are supposed always go up over time as research 
continues. That's not always the case. You sometimes get it up 
to a 7, and then you miss a critical piece and you fall back 
down that chain again. And so at least there is a role for some 
research in the later stages of development and 
commercialization, and I think that's very important.
    The other comment that I have is the way that the CMI 
system is set up. It's a bit of a dream team because there are 
people at the academic institutions and at the national labs 
that understand some fundamental business economics. So when we 
have our weekly calls on our program and someone suggests 
something and I say you can't do that because it's going to 
cost you $2 a pound, there's an understanding that even though 
it's a great idea, it's never going to go anywhere. And so we 
cut off those dead ends very, very quickly by having a very 
close relationship between the researchers and, in this case, 
ourselves. Thanks.
    Chairman Lamb. Before we bring the hearing to a close, I 
want to thank our witnesses once more for coming all the way to 
D.C. to testify for us today. The record will remain open for 2 
weeks for additional statements from the Members and for any 
additional questions the Committee may ask of the witnesses.
    The witnesses are now excused, and the hearing is now 
adjourned.
    [Whereupon, at 11:54 a.m., the Subcommittee was adjourned.]

                                Appendix

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

            Letter submitted by Representative Haley Stevens
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre></body></html>
